App. 1
APPENDIX A
IN THE SUPREME COURT OF ALABAMA
[SEAL]
June 7, 2019
1180559
Ex parte Darrel Conell Nevels. PETITION FOR WRIT
OF CERTIORARI TO THE COURT OF CIVIL AP­
PEALS (In re: Darrel Conell Nevels v. Piggly Wiggly
Corporation et al.) (Jefferson Circuit Court: CV-18-101;
Civil Appeals: 2180347).
CERTIFICATE OF JUDGMENT
WHEREAS, the petition for writ of certiorari in
the above referenced cause has been duly submitted
and considered by the Supreme Court of Alabama and
the judgment indicated below was entered in this
cause on June 7, 2019:
Writ Denied. No Opinion. Wise, J. - Parker, C.J., and
Bolin, Sellers, and Stewart, JJ., concur.
NOW, THEREFORE, pursuant to Rule 41, Ala. R.
App. P, IT IS HEREBY ORDERED that this Court’s
judgment in this cause is certified on this date. IT IS
FURTHER ORDERED that, unless otherwise ordered
by this Court or agreed upon by the parties, the costs
of this cause are hereby taxed as provided by Rule 35,
Ala. R. App. P.
I, Julia J. Weller, as Clerk of the Supreme
Court of Alabama, do hereby certify that the

App. 2
foregoing is a full, true, and correct copy of the
instrument(s) herewith set out as same appear(s) of record in said Court.
Witness my hand this 7th day of June, 2019.
/s/ Julie Jordan Weller
Clerk, Supreme Court of Alabama

App. 3
APPENDIX B
[SEAL]
IN THE SUPREME COURT OF ALABAMA
January 22, 2019
1180309
Darrel Conell Nevels v. Piggly Wiggly Corporation et
al. (Appeal from Jefferson Circuit Court: CV-18-101).
ORDER
IT IS ORDERED that this cause is DEFLECTED
to the Court of Civil Appeals pursuant to § 12-2-7(6),
Code of Alabama, 1975.
IT IS FURTHER ORDERED that further proceed­
ings in this cause shall be filed with the Court of Civil
Appeals pursuant to the rules of procedure applicable
to that court.
Witness my hand this 22nd day of January,
2019.
/s/ Julie Jordan Weller
Clerk, Supreme Court of Alabama
FILED
January 22, 2019
10:14 am
Clerk
Supreme Court of Alabama

App. 4
cc: Jefferson County Circuit Clerk’s Office
Darrel Conell Nevels
Robert M Girardeau
Gwendolyn Alicia Jett
Carroll Hart Sullivan
George M. Zoghby

App. 5
APPENDIX C
STATE OF ALABAMA
COURT OF CIVIL APPEALS
[SEAL]
June 10, 2019
2180347
Darrel Conell Nevels v. Piggly Wiggly Corporation and
Naseem Jr. Ajlouny (Appeal from Jefferson Circuit
Court: CV-18-101)
CERTIFICATE OF JUDGMENT
The appeal in this cause having been duly submit­
ted, IT IS CONSIDERED, ORDERED, AND AD­
JUDGED that the appeal was dismissed on April 9,
2019, due to appellant’s failure to file brief complying
with Rule 28, Ala. R. App. P.
IT IS FURTHER ORDERED that the costs of ap­
peal are taxed against the appellant(s) and sureties as
provided by Rule 35, Alabama Rules of Appellate Pro­
cedure.
The Petition For Writ of Certiorari filed in the Su­
preme Court of Alabama on April 18, 2019, was denied
on June 7, 2019. The certificate of judgment is being
transmitted on June 10, 2019.
/s/ Rebecca C. Oates
Rebecca C. Oates
Clerk, Court of Civil Appeals

App. 6
APPENDIX D
THE COURT OF CIVIL APPEALS
[SEAL]
REBECCA C. OATES 300 DEXTER AVENUE MEG WILLIAMS
MONTGOMERY, ALABAMA
FIELDER
CLERK
ASSISTANT
36104-3741
CLERK
TELEPHONE

334-229-0733
April 9, 2019
2180347
Darrel Conell Nevels v. Piggly Wiggly Corporation and
Naseem Jr. Ajlouny (Appeal from Jefferson Circuit
Court: CV-18-101)
IT IS ORDERED, by the court, that the appeal in
the above styled cause be, and the same is hereby, dis­
missed due to appellant’s failure to file a brief comply­
ing with Rule 28, Ala, R. App. P.
IT IS FURTHER ORDERED that the costs be
taxed against the appellant(s) as provided by Rule 35,
Ala. R. App. P.
I, Rebecca C. Oates, Clerk of the Court of
Civil Appeals of Alabama, do hereby certify
that the foregoing is a full, true, and correct
copy of the instrument(s) herewith set out as
same appear(s) of record in said Court. Wit­
ness my hand this 9th day of April, 2019.
/s/ Rebecca C. Oates
Rebecca C. Oates

App. 7
APPENDIX E
IN THE CIRCUIT COURT OF JEFFERSON
COUNTY, ALABAMA.

DARREL CONELL
NEVELS,

)
)
)
)
)

Plaintiff,
v.
PIGGLY WIGGLY
CORPORATION And
NASEEM AJLOUNY, CITY
OF HOOVER,
Defendants.

CASE NO.
CV 18-101-EAF

)
)
)
)

ORDER
A hearing was held on December 6, 2018 regard­
ing Plaintiff’s Motion to Reverse Decision. All parties
were represented by counsel. Upon consideration, the
motion is Denied.
DONE and ORDERED this 12th day of December,
2018.
/s/ Elisabeth A. French
ELISABETH A. FRENCH
CIRCUIT JUDGE

App. 8
EAF/pc
cc: G. Alicia Jett, Esq.
Robert M. Girardeau, Esq.
Darrel Connell Nevels
P.O. Box 39755
Birmingham, Alabama 35208

App. 9
APPENDIX F
IN THE CIRCUIT COURT OF
JEFFERSON COUNTY, ALABAMA
DARREL CONELL NEVELS, )
)
)
)

Plaintiff,
v.
PIGGLY WIGGLY
CORPORATION and
NASEEM AJLOUNY, CITY
OF HOOVER,
Defendants.

)
)

CASE NO.
CV18-101-EAF

)
)
)
)

ORDER
The Defendants’ Motion to Dismiss is GRANTED.
This case is Dismissed without prejudice, costs taxed
as paid.
DONE and ORDERED this 9th day ofAugust, 2018.
/s/ Elisabeth A. French
ELISABETH A. FRENCH
CIRCUIT JUDGE
EAF/pc
cc: G. Alicia Jett, Esq.
Darrel Connell Nevels
P.O. Box 39755
Birmingham, Alabama 35208

